                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Midwest Region




             Audit Report

Monitoring of CACFP Providers in Minnesota




                           Report No. 27010-0018-Ch
                                       October 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                             Midwest Region
                                    111 North Canal Street - Suite 1130
                                         Chicago, IL 60606-7213


OCTOBER 28, 2005

REPLY TO
ATTN OF:       27010-0018-Ch

TO:            Ollice C. Holden
               Regional Administrator
               Food and Nutrition Service
               77 West Jackson, 20th Floor
               Chicago, IL 60603

ATTN:          Adele Greco
               Senior Financial Specialist
               Financial Management

FROM:          /s/ John W. Pepper for Edward R. Krivus
               Regional Inspector General

SUBJECT:       Monitoring of CACFP Providers in Minnesota


This report presents the results of our audit of the Minnesota Department of Education’s
monitoring of CACFP providers in Minnesota. The Food and Nutrition Service’s response to the
official draft, dated October 20, 2005, is included in its entirety as exhibit E, with excerpts and
the Office of Inspector General’s position incorporated into the Findings and Recommendations
section of the report.

Based on your response, we have reached management decisions on Recommendations
1, 2, 4 through 7, and 9 through 12. Correspondence regarding final actions should be addressed
to the Office of the Chief Financial Officer. Management decisions have not yet been reached
for Recommendations 3, 8, 13, and 14. Management decisions on these recommendations can be
reached once you have provided us with the additional information outlined in the report section,
OIG Position. If you have any questions, please contact me or have a member of your staff
contact Dennis Boedigheimer, Assistant Regional Inspector General, at 312-353-1356.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation of those
recommendations for which management decisions have not yet been reached. Please note that
the regulation requires a management decision to be reached on all findings and
recommendations within a maximum of 6 months from report issuance.
Executive Summary
Monitoring of CACFP Providers in Minnesota (Audit Report No. 27010-0018-Ch)

Results in Brief               This report presents the results of our audit of the Minnesota Department of
                               Education’s (State agency) monitoring of Child and Adult Care Food Program
                               (CACFP) sponsors, 1 which are responsible for day care centers and home
                               sponsors and their individual providers. Our objectives were to evaluate the
                               State agency’s program oversight efforts, emphasizing the implementation of
                               several new rules issued by the Food and Nutrition Service (FNS) to address
                               past program abuse. Our review found that the State agency lacked adequate
                               controls to ensure that the sponsors and providers complied with key CACFP
                               oversight requirements.

                               Our review found that neither the State agency nor the two sponsors we visited
                               was prepared to fully implement the requirement for a new edit check to
                               identify excessive meal claims, which is required to be in place by
                               October 1, 2005. Although the State agency’s automated meal claim system,
                               called Cyber-Linked Interactive Child Nutrition System (CLICS), included
                               edit checks, we determined that the existing edit checks were not designed to
                               detect questionable claims by the majority of providers.

                               We also found that the State agency and two of its ten sponsors did not
                               properly implement other key components of the new FNS rules. Specifically,
                               the State agency did not develop its own process for dealing with seriously
                               deficient sponsors or evaluate whether its sponsors adhered to the new outside
                               employment criteria. In addition, the State agency did not make the household
                               contact policy, to verify a child’s participation in the program, an integral part
                               of its oversight process. Thus, as implemented by the State agency, the new
                               rules may not be effective in detecting and preventing program abuse.

                               Finally, our review found that the State agency needs to improve its general
                               oversight of CACFP sponsors and providers. For example, the State agency
                               did not complete required onsite reviews of all centers and home sponsors,
                               including those that submitted the greatest number of claims. The State agency
                               also did not assess whether sponsors’ monitoring staff conducted effective
                               provider home visits. Lastly, our review found that the State agency did not
                               establish itself as a key player during the investigation and subsequent fraud
                               conviction of four providers that were overseen by one of its sponsors. As a
                               result, the State agency did not promptly secure and return to FNS over
                               $265,000 in court-ordered restitutions for fraudulent provider activities.


1
 CACFP regulations define sponsoring organizations as those responsible for administering the program in one or more day care homes
or child care centers.


USDA/OIG-A/27010-0018-Ch                                                                                                    Page i
Recommendations
In Brief        To improve oversight of CACFP sponsors, we recommend that FNS require
                the State agency to develop procedures, or amend its existing procedures, to
                comply with the new rules. Specifically, the State agency needs to provide
                FNS with its procedures and timeframes for implementing the new edit check,
                and to amend existing edit checks to better identify erroneous claim data. In
                addition, the State agency needs to amend its procedures and issue guidance to
                its sponsors in regard to the new serious deficiency process, the outside
                employment policy, the household contact policy, and monitoring staff levels.
                Finally, the State agency needs to improve its overall internal review process
                and to collect the $265,347 in Federal funds resulting from court-ordered
                restitutions.

Agency Response       In its response to the official draft report, dated October 20, 2005, FNS agreed
                      with all recommendations, except for Recommendation 8. We have
                      incorporated applicable portions of the FNS response, along with our position,
                      within the Findings and Recommendations section of the report. The FNS
                      response is included in its entirety as exhibit E of this audit report.

OIG Position          Based on FNS’ response, we have reached management decisions for
                      Recommendations 1, 2, 4 through 7, and 9 through 12. Requirements for Final
                      Action are listed under OIG Position for each recommendation within the
                      Findings and Recommendations section of the report. Management decisions
                      on Recommendations 3, 8, 13 and 14 can be reached once FNS has provided
                      us with the additional information outlined in the report section, OIG Position.




USDA/OIG-A/27010-0018-Ch                                                                       Page ii
Abbreviations Used in This Report


ADA                 Average Daily Attendance
CACFP               Child and Adult Care Food Program
CFR                 Code of Federal Regulations
CLICS               Cyber-Linked Interactive Child Nutrition System
FNS                 Food and Nutrition Service
FTE                 Full-time Equivalent
OCFO                Office of Chief Financial Officer
OIG                 Office of Inspector General
SDL                 Seriously Deficient List
USDA                United States Department of Agriculture




USDA/OIG-A/27010-0018-Ch                                              Page iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1 New Edit Checks To Prevent and Detect Excessive Provider Claims ......................... 4

        Finding 1             State Agency Needs To Implement New Edit Check ............................................. 4
                                   Recommendation 1 .......................................................................................... 7
                                   Recommendation 2 .......................................................................................... 8
                                   Recommendation 3 .......................................................................................... 8
        Finding 2             Sponsors Did Not Implement Block Claim Edit Check Process Correctly ............ 9
                                   Recommendation 4 ........................................................................................ 10

    Section 2 New Requirements To Improve Program Integrity .................................................... 11

        Finding 3             State and Sponsors Need To Fully Implement the Serious Deficiency
                              Process................................................................................................................... 11
                                   Recommendation 5 ........................................................................................ 12
                                   Recommendation 6 ........................................................................................ 13
        Finding 4             Sponsor’s Outside Employment Policy Needs To Be Amended .......................... 13
                                   Recommendation 7 ........................................................................................ 14
                                   Recommendation 8 ........................................................................................ 15
        Finding 5             State Agency Needs To Amend Its Household Contact Policy ............................ 15
                                   Recommendation 9 ........................................................................................ 16

    Section 3 State Agency’s Oversight of the CACFP ...................................................................... 17

        Finding 6             On-Site Review Process for Centers and Home Sponsors Needs
                              Improvement ......................................................................................................... 17
                                   Recommendation 10 ...................................................................................... 19
                                   Recommendation 11 ...................................................................................... 20
        Finding 7             Sponsor Staffing Requirement Did Not Ensure Adequate Oversight ................... 20
                                   Recommendation 12 ...................................................................................... 21
        Finding 8             State Agency Did Not Secure Federal Funds........................................................ 22
                                   Recommendation 13 ...................................................................................... 23
                                   Recommendation 14 ...................................................................................... 24

Scope and Methodology........................................................................................................................ 26

USDA/OIG-A/27010-0018-Ch                                                                                                                       Page iv
Exhibit A – Summary of Monetary Results ....................................................................................... 27
Exhibit B – Sponsors’ Monitoring Review Results and OIG Claims Analysis of 40
             Providers from October 2003 through January 2005.................................................. 28
Exhibit C – Results of OIG Home Visits to 25 Providers.................................................................. 29
Exhibit D – Agency Response to the Management Alert .................................................................. 30
Exhibit E – Agency Response to the Report....................................................................................... 34




USDA/OIG-A/27010-0018-Ch                                                                                                  Page v
Background and Objectives
Background                    The Child and Adult Care Food Program (CACFP), which is administered by
                              the U.S. Department of Agriculture’s (USDA) Food and Nutrition Service
                              (FNS), was designed to ensure that children and adults in day care facilities
                              receive nutritious meals. 2 The FNS regional offices, through State agencies and
                              contracted centers and home sponsors, provide oversight of participating day
                              care facilities. Center sponsors 3 and home sponsors 4 enter into agreements with
                              the State agency to assume administrative and financial responsibility for
                              CACFP operations at individual child and day care facilities.

                              As the State agency for CACFP in the State of Minnesota, the Minnesota
                              Department of Education has direct responsibility for program operations,
                              including guarding against fraud and abuse. During fiscal year 2004, the State
                              agency claimed over $50 million for meal reimbursements, commodities, and
                              State administrative expenses.

                              According to Federal Regulations 5 the State agency must, at a minimum,
                              (1) conduct periodic reviews of centers and home sponsors to ensure compliance
                              with program requirements, (2) take corrective action on any deficiencies and
                              internal control problems that are found and ensure corrective actions are
                              completed, and (3) review and verify that monthly reimbursement claims are
                              valid. To comply with these requirements, the State agency’s procedures specify
                              that onsite reviews should be conducted once every three years at centers and
                              every two years at home sponsors, including visits at a sample of provider
                              homes. The State agency’s process involves issuing formal reports to centers
                              and sponsors describing needed corrective actions, which State agency officials
                              are to monitor to ensure correct and timely implementation. Finally, to ensure
                              monthly meal claims are valid, the State agency processes center and sponsor
                              claims using an automated online system, called the Cyber-Linked Interactive
                              Child Nutrition System (CLICS).

                              The CLICS software contains edit checks that help detect meal claim errors and
                              prevent payments for claims that exceed certain limits. The CLICS system is
                              completely automated in that center and sponsor claims are submitted online,
                              run through a series of edit checks, and, if no errors are detected, payment is
                              automatically authorized. However, if an error or errors are detected in a claim,

2
  CACFP is authorized through section 17 of the Richard B. Russell National School Lunch Act (42 U.S.C. 1751 et. seq.), with program
requirements listed under Title 7, Part 226 of the Code of Federal Regulations (CFR). In June 2000, the Agricultural Risk Protection Act
(Public Law 106-224) was further amended to include a number of additional provisions to the National School Lunch Act and the Child
Nutrition Act of 1966.
3
  CACFP regulations define a center as a child care center, an adult day care center, or an outside-school-hours care center. For the
purposes of this audit report, the term “center” refers only to child care centers, except where separately noted.
4
  CACFP regulations define sponsoring organizations as those responsible for administering the program in a day care home(s) or
center(s). In this report, the term “sponsor” pertains only to organizations responsible for day care homes, except where separately noted.
5
  7 CFR 226.6 (m)(1) and (6) and 7 CFR 226.7 (k).
USDA/OIG-A/27010-0018-Ch                                                                                                         Page 1
                            it is rejected and the sponsor must make the State-recommended corrections
                            before it re-submits the claim and CLICS authorizes payment.

                            In fiscal year 1999, the Office of Inspector General (OIG) issued a report on the
                            results of a Presidential Initiative known as Operation Kiddie Care. OIG
                            reported that the rules for CACFP had to change in order to reduce the wide-
                            spread fraud perpetrated by program participants. In response to that report, FNS
                            issued management improvement guidance and pursued regulatory changes to
                            better prevent and detect program abuse. Starting in fiscal year 2002, FNS
                            initiated program changes designed to strengthen CACFP operations and
                            monitoring at the State agency and sponsor levels. The first phase of program
                            changes was to be implemented by the end of FY 2003 and included the
                            following provisions: 6

                                 •    Sponsors must limit outside employment by employees that interferes
                                      with their program-related responsibilities and duties.

                                 •    Sponsors must employ the appropriate number of monitoring staff based
                                      on the number of centers and homes under their authority, and start
                                      conducting unannounced visits.

                                 •    State agencies must maintain a list of program participants found to have
                                      serious program deficiencies. If corrective actions to fix those
                                      deficiencies are not addressed, State agencies must take action to remove
                                      the violators from the program.

                                 •    Home sponsors are required to perform a minimum of two unannounced
                                      reviews per provider annually, and to perform an average of three
                                      provider visits per year.

                            Additional program changes were to be implemented by State agencies,
                            sponsors, and home providers in various stages by October 1, 2005. The
                            required program changes and implementation dates include:

                                 •    State agencies and home sponsors must make household contacts to
                                      verify CACFP enrollment and attendance. (April 1, 2005)

                                 •    Home sponsors must perform an unannounced visit if a provider claims
                                      the same number of meals for 15 or more consecutive days, which is
                                      known as a block claim. (October 1, 2005)

                                 •    State agencies must perform an edit check of providers’ claims to
                                      identify claims that exceed participant enrollment times operating days
                                      times number of approved meal types. (October 1, 2005)


6
 The provisions were published in the Federal Register Volume 67, No. 124, dated June 27, 2002, and Volume 69, No. 169, dated
September 1, 2004, respectively, and incorporated into the Federal Regulations 7 CFR 226, dated January 1, 2005.
USDA/OIG-A/27010-0018-Ch                                                                                                   Page 2
Objectives       The objective of the audit was to evaluate the Minnesota State agency’s
                 monitoring of CACFP sponsors, particularly the State agency’s implementation
                 of program changes made since fiscal year 2002 to prevent and detect program
                 abuses.




USDA/OIG-A/27010-0018-Ch                                                              Page 3
Findings and Recommendations
Section 1 New Edit Checks To Prevent and Detect Excessive Provider Claims

                     Previous OIG audits and investigations have reported that CACFP home
                     providers were reimbursed for meals claimed for absent and nonexistent
                     children. To assist in determining whether a provider’s claim is valid, FNS
                     required State agencies to implement an edit check that would limit providers’
                     claims based on their approved meal types. Our review disclosed that the State
                     agency was not prepared to implement the new edit check, which will
                     necessitate changes to both the sponsors’ and State’s computer systems and the
                     collection and input of approved meal type data for over 10,000 providers. Our
                     review also disclosed that other edit checks the State previously implemented
                     were set at limits too high to successfully detect questionable claims from the
                     majority of providers.

                     Another new CACFP rule requires sponsors to implement an edit check
                     designed to detect suspicious provider claims, called block claims. A block
                     claim occurs when a provider claims the same number of meals every day for an
                     extended period of time. Once detected, a block claim must be further
                     investigated. However, our review at two home sponsors disclosed that neither
                     sponsor made an unannounced visit to a provider’s home upon identifying a
                     block claim. Unless the State agency and its sponsors implement the new edit
                     checks as required, the type of fraud documented in past audits and
                     investigations may continue to go undetected and undeterred.




Finding 1            State Agency Needs To Implement New Edit Check

                     The State agency’s meal claim system, CLICS, did not include a new edit check
                     designed to detect excessive claims. Furthermore, the State agency’s current edit
                     checks were not capable of detecting excessive claims by the majority of
                     providers. The State agency had not developed a plan to implement the new edit
                     check, nor had it established reasonable limits for its existing edit checks. As a
                     result, the State agency was unable to determine whether all provider claims
                     were valid before authorizing payment.

                 By October 1, 2005, the State agency must implement a new edit check, which
                 sets the maximum provider reimbursement at enrollment times serving days
                 times approved meal types. Our review of CLICS disclosed that it contained
                 data on enrollment and serving days for each provider, but it was not designed to
                 accept or use a provider’s approved meal types. We found that providers’
                 approved meal types are documented on their applications, which are generally
                 maintained by the sponsor in paper form. Therefore, even if CLICS was able to
USDA/OIG-A/27010-0018-Ch                                                                    Page 4
                 accept the providers’ approved meal types, the State agency would still have to
                 require its 10 sponsors to update their computer systems to accept the new data,
                 and then physically enter the approved meal types for over 10,000 providers.
                 State agency officials informed us that they have not planned or discussed the
                 changes that will be needed to CLICS to implement the new edit check.

                 Existing Edit Checks Ineffective

                 Prior to the new edit check requirement, the State agency installed several edit
                 checks in CLICS to prevent and detect excessive provider claims. Two of the
                 edit checks compare provider claim data to certain maximum levels, as set by
                 the State, and reject a provider’s monthly claim if (1) the number of serving
                 days is greater than 50 days, and (2) the average daily attendance is greater than
                 42 children. Our review of these two edit checks disclosed that the limits were
                 set too high to identify errors in a provider’s claims.

                        Maximum serving days per month set at 50 days

                        One of the edit checks in CLICS rejects a provider’s claim if the number
                        of serving days is greater than 50. Our analysis of claim data from
                        August 2004 to January 2005 for over 10,000 day care homes disclosed
                        that most providers claimed far less than 50 serving days. As indicated in
                        Figure 1 below, the edit check for maximum serving days was set at a
                        level too high to detect and prevent excessive claims by a majority of
                        providers, since 96 percent of providers claimed 24 or fewer serving
                        days.
                                                   EDIT CHECK FOR NUMBER OF SERVING DAYS
                                            Comparison of Serving Days Claimed to Maximum Serving Days Allowed in CLICS
                                                            Provider Claims August 2004 - January 2005
                                  Most Providers Claimed 14 to 24 Serving Days               Edit Check Set at 50 Serving Days

                                                                                                                                      4000



                                                                                                                                      3500



                                                                                                                                      3000



                                                                                                                                      2500




                                                                                                                                             Number of Providers
                                                                                                                                      2000



                                                                                                                                      1500



                                                                                                                                      1000



                                                                                                                                      500



                                                                                                                                      0
                                      4           9           14           19         24          29           34          39    60




                                                                    Number of Serving Days
                                                                           Figure 1

                        According to State agency officials, the 50-day maximum was
                        established to account for providers that started or ended service during
                        one month but wanted to claim those meals with the previous or next full
USDA/OIG-A/27010-0018-Ch                                                                                                              Page 5
                                               month’s claim. Our analysis of 6 months’ worth of claim data showed
                                               that 65 providers claimed more than the number of days in a month, with
                                               the highest claim being 42 serving days. However, none of those
                                               65 providers’ claims were detected by CLICS because they did not reach
                                               the 50-day maximum. By adjusting this edit check to a more reasonable
                                               limit (between 25 and 31 days), the State agency could still process the
                                               majority of provider claims and detect claims that need to be further
                                               investigated.

                                               Maximum average daily attendance set at 42 children

                                               The other CLICS edit check we reviewed set the maximum average daily
                                               attendance (ADA) allowed per provider at 42 children. Based on
                                               Minnesota’s maximum license capacity of 14 children 7 times 3, the
                                               maximum number of shifts per provider, the State agency’s edit check
                                               allows a maximum ADA of 42 children (14 children x 3 shifts per day).
                                               However, in setting the maximum ADA at 42 children, the State agency
                                               did not take into account the license limits or the meal shifts used by the
                                               majority of its providers. As indicated in Figure 2 below, our analysis
                                               disclosed that most providers had an ADA of 15 children or less. Also,
                                                                    EDIT CHECK FOR AVERAGE DAILY ATTENDANCE (ADA)
                                                                       Comparison of ADA Claimed by Providers to Maximum ADA Allowed by CLICS
                                                                                   Provider Claims August 2004 - January 2005


                                                                 ADA for Majority of Providers < 15 Children        Edit Check for ADA Set at 42 Children

                                                                                                                                                                 1400



                                                                                                                                                                 1200



                                                                                                                                                                 1000




                                                                                                                                                                        Number of Providers
                                                                                                                                                                 800



                                                                                                                                                                 600



                                                                                                                                                                 400



                                                                                                                                                                 200



                                                                                                                                                                 0
                                                             3            8           13          18           23          28           33          38      50
                                                                                                  Average Daily Attendance

                                                                                                       Figure 2

                                               on average, 80 percent of all providers had a licensed capacity below the
                                               maximum licensed capacity of 14 (the remaining 20 percent of providers
                                               had the maximum of 14). We also found during our home visits to
                                               25 providers that 3 shifts per meal was a rare occurrence; 96 percent of
                                               the providers we visited served less than 3 shifts, which meant they
                                               operated at less than or equal to their licensed capacity. By limiting

7
    Minnesota’s maximum license capacity is 10 children for one adult, but allows up to 14 children per home if there is another adult present.
USDA/OIG-A/27010-0018-Ch                                                                                                                                               Page 6
                        providers’ claims to their individual license capacities, the State agency
                        could still process a majority of the claims and also identify providers
                        whose claims need to be further investigated.

                 Despite the edit check problems we identified, our review disclosed that the
                 State agency relied heavily on CLICS without ensuring that the system’s
                 controls were sufficient to identify all claiming errors. In a discussion with State
                 agency officials, they admitted that they did not review provider claim data
                 generated by the system because the main purpose of CLICS is to automate the
                 claims process. The State agency’s lack of involvement in the claims review
                 process means that claiming errors are not analyzed for State-wide trends. In
                 fact, a State agency official stated that CLICS automatically overwrites the
                 original errors identified through the system edit checks once a sponsor corrects
                 and resubmits its providers’ claims. Therefore, valuable sponsor and provider
                 data that could be used to identify trends in program deficiencies is lost every
                 month.

                 We concluded that the State agency can improve its claims review process by
                 setting reasonable limits on its current edit checks, developing and
                 implementing the new edit check by October 1, 2005, and analyzing CLICS data
                 to identify State-wide trends.

Recommendation 1

                 Require the State agency to provide FNS with their procedures and timeframes
                 for implementing the new edit check.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency will revise provider applications by June 1, 2006, to
                 include the data necessary for the new edit check. By October 1, 2006, the State
                 agency will revise its CLICS system to perform the new edit check.

                 OIG Position.

                 We accept FNS’ management decision. For Final Action, FNS officials need to
                 inform the OCFO when the new edit checks have been implemented.




USDA/OIG-A/27010-0018-Ch                                                                     Page 7
Recommendation 2

                 Require the State agency to establish reasonable limits for the existing edit
                 checks in CLICS.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency revised its edit checks for the number of serving days from
                 50 to 31 days, and the average daily attendance from 42 to 25-30 children. In
                 addition, by March 1, 2006, the State agency will implement improvements to
                 CLICS to perform better analyses of claim data to ensure program integrity.

                 OIG Position.

                 We accept FNS’ management decision. For Final Action, FNS officials need to
                 inform the OCFO when the State agency implemented more reasonable limits
                 for their existing edit checks in CLICS.

Recommendation 3

                 Require the State agency to establish procedures to retain and use CLICS data to
                 identify trends and implement appropriate followup and corrective actions.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency will use CLICS data to conduct analyses of monthly
                 provider claims, identify trends, and implement appropriate followup and
                 corrective actions. By October 1, 2007, the State agency will revise CLICS to
                 retain and record data previously overwritten by new data.

                 OIG Position.

                 To reach management decision, FNS needs to provide us with an interim
                 measure and timeframe (12 months or less) that would describe the State
                 agency’s retention of data errors from CLICS for subsequent analysis, followup,
                 and corrective actions.




USDA/OIG-A/27010-0018-Ch                                                                  Page 8
Finding 2            Sponsors Did Not Implement Block Claim Edit Check Process
                     Correctly

                     The two home sponsors we reviewed omitted a key component of the new block
                     claim edit check process. A block claim is an indicator of claiming irregularities
                     and, once detected, it must be investigated further. However, neither sponsor
                     made an unannounced visit to the provider’s home when they first identified a
                     block claim. Until sponsors develop adequate procedures to implement the new
                     block claim edit check process, they will be less likely to detect and deter
                     fraudulent meal claims.

                     FNS published an interim rule in September 2004 requiring sponsors to develop
                     a block claim edit check process, with full implementation required by
                     October 1, 2005. FNS defines a block claim as the same number of meals
                     claimed for one child and one meal type (i.e., breakfast, lunch, snack, or supper)
                     for 15 consecutive days within a claiming period. Once a block claim is
                     identified, a sponsor must conduct an unannounced visit to the provider’s home
                     within 60 days.

                     Our review of the block claim edit check procedures for two sponsors found
                     that neither of the two required an unannounced review when a block claim is
                     first identified. Instead, after the initial detection of a block claim, the first
                     sponsor’s procedures called for sending a warning letter, explaining what a
                     block claim is and advising against submitting a block claim in the future. Only
                     when a provider submits a block claim for two consecutive months would the
                     sponsor conduct an unannounced review. The sponsor developed its written
                     procedures for block claims before the new rule required that an unannounced
                     visit be conducted after the first block claim.

                     The second sponsor had not documented its block claim edit check process at
                     all. Sponsor officials stated that they were waiting for guidance from the State
                     agency before they documented and implemented the block claim edit check
                     process. Although the State agency provided training to its ten sponsors on the
                     new block claim edit check process in January 2005, it did not follow up to
                     ensure that the sponsors implemented the process correctly.

                 Proper implementation of the new block claim edit check is key to the sponsors’
                 detection of suspicious provider claims. In a discussion with a State agency
                 official, they stated that they assessed the sponsors’ implementation of the new
                 rules during the onsite review process. However, our review of the State
                 agency’s onsite review forms and reports did not find a single reference to the
                 new rules. We concluded that, since both of the sponsors we reviewed failed to
                 properly implement the new program requirements, the State agency needs to
USDA/OIG-A/27010-0018-Ch                                                                    Page 9
                 evaluate its remaining eight sponsors for compliance in the area of block claim
                 edit checks.

Recommendation 4

                 Require the State agency to monitor its home sponsors to ensure that they
                 implement the required elements of the new block claim edit check process,
                 which must include an unannounced visit to the provider’s home within 60 days
                 of identifying a block claim.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency will revise its daycare home Sponsor’s management plan
                 checklist, by January 1, 2006, to include the disclosure of procedures for edit
                 checks and block claims. The State agency will ensure that a Sponsor’s
                 management plan will meet the minimum requirements of the block claim edit
                 check process prior to approving of the plan.

                 OIG Position.

                 We accept FNS’ management decision. For Final Action, FNS officials need to
                 inform the OCFO when the State agency implements additional procedures to
                 monitor its home sponsors and verify the adequate implementation of the new
                 block claim edit check process.




USDA/OIG-A/27010-0018-Ch                                                                Page 10
Section 2 New Requirements To Improve Program Integrity

                 FNS designed the new CACFP rules to improve program integrity while
                 allowing State agencies flexibility in implementing them. Our review found that
                 the State agency and sponsors did not fully comply with three of the new rules,
                 two of which were to be implemented in 2003. Specifically, the State agency
                 adopted FNS’ new serious deficiency process without documenting its criteria
                 for taking action against seriously deficient sponsors and providers. Also, the
                 State agency did not ensure that its sponsors adhered to FNS’ new outside
                 employment policy. Finally, the State agency did not make the household
                 contact policy, to verify a child’s participation in the program, an integral part of
                 its oversight process. In order to improve program integrity and increase
                 detection of program abuse, the State agency needs to fully implement the new
                 rules—and ensure that its sponsors do the same.




Finding 3        State and Sponsors Need To Fully Implement the Serious
                 Deficiency Process

                 In June 2002, FNS issued new rules for the State agency and its sponsors to
                 follow when determining whether a program participant is seriously deficient.
                 The new process requires the State agency and sponsors to determine based on
                 the magnitude and frequency of violations–such as false claims and incomplete
                 meals—whether a center, home sponsor, or provider should be included on a
                 Seriously Deficient List (SDL). Our review disclosed that the State agency
                 adopted the new FNS rule without developing written procedures for the serious
                 deficiency process. As a result, daycare centers and providers repeatedly
                 violated program requirements without being placed on the SDL.

                 During an assessment of the State agency’s program oversight, the FNS regional
                 office noted that the State agency identified three daycare centers as repeat
                 program violators but did not place them on the SDL. The State agency’s review
                 results for those three centers disclosed repeated counting and claiming
                 problems and failure to meet meal pattern requirements. However, according to
                 an FNS regional official, the centers were not placed on the SDL because the
                 State agency followed the old rules for the serious deficiency process, which did
                 not allow a participant time for corrective actions when they were assessed as
                 seriously deficient. Since the new serious deficiency rule went into effect in
                 fiscal year 2002, the State agency had placed just 2 of its over 300 centers on the
                 SDL.

                 Because the State agency failed to issue specific guidelines, the two home
                 sponsors we reviewed also could not to assess whether providers who repeatedly

USDA/OIG-A/27010-0018-Ch                                                                     Page 11
                 violate program regulations should be placed on the SDL. At the two sponsors
                 we visited, we reviewed 40 providers’ meal claim forms to determine if any
                 adjustments were made to the original claim amounts. We determined that the
                 sponsors had reduced the original claim amounts submitted by 19 of those
                 40 providers for more than one year, with 11 of those 19 providers claiming
                 meals that did not meet meal pattern requirements. Our review also disclosed
                 that one of the two sponsors had identified, through household contacts, another
                 17 providers that claimed children that were not in their care. However, none of
                 the 36 (19+17) providers were placed on the SDL. Officials from both sponsors
                 stated that the State agency trained them on the new serious deficiency process
                 and provided examples of seriously deficient providers; however, the State
                 agency allowed the sponsors to decide when to place a provider on the SDL.

                 We concluded that the State agency did not develop its own procedures or
                 provide sufficient guidance to its sponsors for identifying seriously deficient
                 providers. When we requested the State agency’s procedures, officials provided
                 us with FNS’ training slides as documentation of their process. However, we
                 determined that the documentation was not sufficient to provide adequate
                 guidance to its staff in identifying a sponsor or a provider as seriously deficient.
                 Until the State agency develops its serious deficiency procedures, both it and its
                 sponsors have no standard to use in identifying seriously deficient providers.

Recommendation 5

                 Require the State agency to develop and implement a written policy for its
                 serious deficiency process for its sponsors to follow that, at a minimum,
                 provides examples that would result in a serious deficiency declaration.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency has drafted serious deficiency procedures. In addition, the
                 State agency will require, by December 15, 2005, daycare home sponsors’ input
                 on specific criteria for declaring providers as seriously deficient. A final written
                 policy for sponsors to follow in declaring providers seriously deficient will be
                 completed by January 30, 2006, with implementation by March 1, 2006.

                 OIG Position.

                 We accept FNS’ management decision. For Final Action, FNS officials need to
                 inform the OCFO when the State agency developed and implemented a written
                 policy for the serious deficiency process.




USDA/OIG-A/27010-0018-Ch                                                                    Page 12
Recommendation 6

                               Require the State agency to assess its sponsors’ implementation and use of the
                               new serious deficiency process.

                               Agency Response.

                               In its response, dated October 20, 2005, FNS agreed with our recommendation
                               and the State agency will assess daycare home Sponsor’s actual implementation
                               of the serious deficiency process during its regular review process. The State
                               agency’s assessment of their sponsors’ implementation of the serious deficiency
                               process will begin on March 1, 2006.

                               OIG Position.

                               We accept FNS’ management decision. For Final Action, FNS officials need to
                               inform the OCFO when the State agency has the procedures in place to
                               adequately assess a sponsor’s use of the new serious deficiency process.




Finding 4                      Sponsor’s Outside Employment Policy Needs To Be Amended

                               To help guard against real and apparent conflicts of interest, a new FNS rule
                               requires sponsors to develop an outside employment policy. The policy should
                               specifically restrict any outside employment that constitutes a real or apparent
                               conflict of interest. However, the outside employment policy developed by one
                               of the two sponsors we reviewed did not address the members of its board of
                               directors. The State agency approved the sponsor’s policy without ensuring it
                               addressed all members of the sponsor’s organization. As a result, providers held
                               a majority of the positions on the sponsor’s board—a real conflict of interest.
                               One of the ways in which a sponsor can guard against fraud and abuse is
                               through a board of directors who are independent of the employees and day care
                               home providers they direct. FNS guidance states that a majority of the sponsor’s
                               board should be comprised of community members who are not financially
                               interested in the board’s activities and are otherwise independent and
                               accountable. 8

                               Our review disclosed, however, that one sponsor’s outside employment policy
                               allowed employees and providers to hold seven of the eight board positions, six
                               of which were filled by providers. Since the sponsor’s board of directors makes
                               decisions affecting day care home providers and sponsor employees, using
                               individuals in these dual roles represents a real conflict of interest. As providers,
                               the board members had a definite financial interest in the organization because

8
    FNS Management Improvement Guidance for Daycare Home Sponsors, September 1999.
USDA/OIG-A/27010-0018-Ch                                                                                    Page 13
                          they received meal reimbursements through the sponsor. Also, the providers
                          were not independent because they were under the direction of the program
                          director, while at the same time having the voting power to approve or
                          disapprove individuals for that position.

                          Although the State agency was aware of the sponsor’s practice of using mostly
                          providers and employees in dual roles—which is contrary to both the new rule 9
                          and previous FNS guidance—it did not require the sponsor to change its policy.
                          Instead, the State agency recommended that the sponsor contract with another
                          sponsor to review the providers that served on the board, to which the sponsor
                          agreed. Also, the sponsor changed its policy to prohibit providers from holding
                          the board positions of treasurer and program director. However, the conflict of
                          interest remained with a majority of the board members, including president and
                          vice-president.

                          To prevent a real or apparent conflict of interest, the State agency must ensure
                          that all of its sponsors have properly developed and implemented an outside
                          employment policy that addresses the need for an independent board of
                          directors. Until the State agency takes action in this regard, the sponsors’ boards
                          of directors may not fulfill their purpose of detecting and preventing program
                          abuse.

Recommendation 7

                          Require the State agency to review all sponsors' outside employment policies,
                          written compensation plans, and professional service contracts, to ensure they
                          address and disclose conflict-of-interest, with all affiliates (employees,
                          contractors, and board members) of the organization.

                          Agency Response.

                          In its response, dated October 20, 2005, FNS agreed with our recommendation
                          and the State agency amended its daycare home Sponsor’s management plans to
                          require disclosure of its outside employment policy. The State agency will
                          review a sponsor’s policy as part of the annual application process and verify the
                          sponsor’s adherence to that policy during its regular monitoring process. The
                          State agency plans to implement their new process by March 1, 2006.

                          OIG Position.

                          We accept FNS’ management decision. For Final Action, FNS officials need to
                          inform the OCFO when the State agency has implemented its process to review
                          all sponsors’ outside employment policy.


9
    7 CFR 226.6 (b)(16)
USDA/OIG-A/27010-0018-Ch                                                                             Page 14
Recommendation 8

                          Require the State agency to review all sponsors’ current board members to
                          ensure that a majority are individuals from the community with no financial
                          interest in the board’s activities and are otherwise independent and accountable.

                          Agency Response.

                          In its response, dated October 20, 2005, FNS stated that they expressed their
                          disagreement to this recommendation in previous meetings and maintain that
                          they cannot require the State agency to undertake action not required by 7 CFR
                          226 regulations. As an alternative, FNS proposed that it require the State agency
                          to implement the regulatory requirements identified in 7 CFR 226.6
                          (b)(2)(vii)(C)(1), which would require the State agency to ensure a sponsor’s
                          board of directors provides adequate oversight of the Program. In addition, FNS
                          will require the State agency to demonstrate how they will evaluate the board of
                          directors’ Program oversight, which includes an evaluation of a board of
                          director’s independence, conflict of interest, and less-than-arms-length
                          transactions.

                          OIG Position.

                          We have no record of FNS’ disagreement to this recommendation. This
                          recommendation specifically reflects suggestions provided by FNS at a meeting
                          held earlier this year. In September 1999, FNS issued nationwide guidance to
                          State agencies and sponsors to use in conjunction with the regulations to
                          improve performance of existing sponsors and to ensure that only well qualified
                          potential sponsors are initially approved, and our recommendation follows that
                          guidance. Since we cannot reach management decision, FNS officials need to
                          elevate this issue to the National Office for guidance.




Finding 5                 State Agency Needs To Amend Its Household Contact Policy

                          FNS published a new rule, dated September 1, 2004, that required State agencies
                          to establish a household contact policy. However, the State agency’s policy on
                          household contacts does not emphasize household contacts as a part of their
                          sponsor and provider reviews. As a result, the State agency has yet to perform
                          any household contacts, which could help it assess the extent of program abuse
                          or identify potentially fraudulent meal claims.

                          Federal regulations 10 stipulate that State agencies were to establish household
                          contact policies by April 1, 2005. This policy was to include procedures

10
     7 CFR 226.6 (m)(5)
USDA/OIG-A/27010-0018-Ch                                                                           Page 15
                 governing household contacts conducted by both the State agency, as part of its
                 sponsor and provider reviews, and by its sponsoring organizations. The purpose
                 of household contacts is to verify a child’s participation in the program by
                 contacting the child’s parent.

                 Based on our review of its household contact policy, we found that the State
                 agency does not use household contacts as a part of its sponsor and provider
                 reviews. Instead, the State agency’s policy is to make household contacts only
                 when questioning a sponsor’s capability to investigate inaccurate or fraudulent
                 provider claims. We found that the State agency did not make parental contacts
                 even when its own provider visits suggested they were necessary. For example,
                 all eight sponsor reviews the State agency completed in fiscal years 2003 and
                 2004 disclosed that children normally in the providers’ care were missing on the
                 day of the provider visits.

                 We concluded that the State agency did not implement an effective household
                 contact policy since it was not a required part of its overall review process. An
                 effective household contact policy might have identified providers that were
                 committing fraud or at least identified other suspicious claims from those
                 providers. (See Finding 8.) However, until the State agency makes household
                 contacts part of their review process, FNS has no assurance that the State agency
                 would be able to detect and deter the type of fraud as documented in past audits.

Recommendation 9

                 Require the State agency to amend its household contact policy to include
                 parental contacts as a method of verifying the attendance and enrollment of
                 participating children during its monitoring of sponsors and its providers.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency will amend its household contact policy to more clearly
                 delineate its use of household contacts during sponsor and provider reviews.
                 The State agency will implement their amended household contact procedures
                 by March 1, 2006.

                 OIG Position.

                 We accept FNS’ management decision. For Final Action, FNS officials need to
                 inform the OCFO when the State agency has implemented its amended
                 household contact policy.




USDA/OIG-A/27010-0018-Ch                                                                 Page 16
Section 3 State Agency’s Oversight of the CACFP

                                 The State agency is responsible for administering CACFP, including monitoring
                                 participating sponsors. However, several aspects of the State agency’s oversight
                                 process need improvement. For example, the State agency did not ensure that all
                                 reviews were completed as part of its onsite review process. The State agency
                                 also did not assess whether sponsors’ monitoring staff were conducting effective
                                 provider home visits. Finally, the State agency did not establish itself as a key
                                 player during the investigation and subsequent conviction of four providers at
                                 one of its sponsors, resulting in its failure to secure and return to FNS over
                                 $265,000 in court-ordered restitutions for fraudulent provider activities.




Finding 6                        On-Site Review Process for Centers and Home Sponsors Needs
                                 Improvement

                                 The State agency did not complete the required on-site reviews of all day care
                                 centers and home sponsors, and for the reviews completed, they did not always
                                 ensure that all corrective actions were addressed. With the reorganization of
                                 State agency management in 2004, there was minimal oversight of the review
                                 process and they have not yet amended review procedures to ensure staff
                                 responsibilities were clearly defined. Therefore, the State agency’s review teams
                                 were left to complete all phases of the process without adequate supervision. As
                                 a result, the State agency did not review 3 of its 10 highest-claiming centers and
                                 2 of its home sponsors—responsible for nearly 20 percent of all home providers.

                                 Federal regulations 11 require the State agency to review home sponsors with
                                 more than 100 facilities at least once every 2 years, and centers at least once
                                 every 3 years.

                                 Day care centers and sponsors not reviewed, deficiencies not always addressed

                                 The State agency did not fulfill its oversight responsibility to review all centers
                                 at least once every three years. We selected 10 of the over 300 centers that
                                 submitted meal reimbursements in the highest dollar amounts in 2004. We
                                 determined that the State agency did not review 3 of the 10 highest-claiming
                                 centers 12 in over 6 years. In addition, for one of the seven center reviews that
                                 were completed, the State agency did not have a copy of the center’s response to
                                 the review findings, which included deficiencies such as claiming children not
                                 present and meals that did not meet meal pattern requirements. As a result, we


11
     7 CFR 226.6(m)(4)(i) and (ii).
12
     The term “center” in this context, refers to center sponsors that may include additional child care centers under one sponsorship.
USDA/OIG-A/27010-0018-Ch                                                                                                           Page 17
                              were unable to determine whether the one center adequately addressed all
                              corrective actions for that review.

                              Similar to its oversight of centers, the State agency did not fulfill its oversight
                              responsibility for its 10 home sponsors. Each sponsor covered between 100 and
                              5,000 homes, meaning that all 10 sponsors should have been reviewed at least
                              once every 2 years. However, we determined that two of the ten sponsors were
                              not reviewed at all during fiscal years 2003 and 2004. In addition, of the eight
                              sponsor reviews that were completed during those years, three of the review
                              reports were not issued within 60 days. 13 As a result, sponsors continued to
                              violate program requirements, one for more than 5 months, without taking the
                              required corrective actions. (See table below).

                                               SPONSOR REVIEWS SCHEDULED or PERFORMED
                                                             Sponsor Visit
                                         Sponsor Name                      Report Issue Date Elapsed Days
                                                                Date 14
                              1. Adults & Children Alliance                   02/28/2004              08/20/2004               173
                              2. CCRR, Inc.                                   12/31/2003              02/04/2004               35
                              3. MLFCCA                                       09/30/2004              11/12/2004                43
                              4. CCNI                                        09/30/2004 15           NOT ISSUED                  -
                              5. Child Care Choices                          08/31/200415            NOT ISSUED                  -
                              6. Children Advocate Program, Inc.              08/28/2003              09/11/2003                14
                              7. Providers Choice, Inc.                       08/12/2003              10/29/2003                78
                              8. Wilder Family CCN                            01/31/2003              02/27/2003                27
                              9. Scope Resource Center                        11/30/2002              12/31/2002               31
                              10. Prime Providers, Inc.                       09/17/2003              12/23/2003               97


                              According to State agency officials, a verbal explanation of findings is given to
                              the sponsors before they leave the site, but review reports are not issued until the
                              sponsor provides evidence that all corrective actions have been addressed.
                              However, one sponsor informed us that the delay in the State agency’s reporting
                              makes it very difficult to collect overclaimed meals from providers. This
                              sponsor stated that the State agency’s report, identifying the provider name and
                              date of visit, is the evidence they need to notify providers of observed program
                              violations and to seek reimbursement.

                              In other cases, we determined that the State agency issued review reports
                              without ensuring that sponsors had taken corrective actions. During fiscal years
                              2003 and 2004, the State agency reported 352 findings for 8 sponsors and
                              required the implementation of 144 corrective actions that would address one or
                              more of the findings. Based on the sponsors’ written replies to these reviews, we
                              determined that the sponsors addressed only 114 corrective actions. The State
                              agency did not thoroughly monitor the sponsors’ responses, and therefore, 30 of

13
   There was no Federal requirement for the State agency to follow in issuing their reports. We applied the same criteria to the State that
FNS requires of its regional staff in issuing management evaluation (ME) reports of State agency CACFP operations. FNS ME guidance
stated that timely reporting is critical and recommended that ME reports be distributed within 60 days from the completion of the ME.
14
   The exact date was not always indicated on the State agency’s documents so we used the last day of the month to calculate the number
of elapsed days.
15
   Month and year represent when the review was scheduled, but no evidence was provided that the review was actually performed.
USDA/OIG-A/27010-0018-Ch                                                                                                        Page 18
                 the 144 (21 percent) corrective actions were not addressed, but the State agency
                 still closed out the review process by notifying the sponsors that no further
                 correspondence was required.

                 No trend analysis of review results

                 We also found that the State agency did not analyze the results of the reviews it
                 completed in order to identify trends or systemic program weaknesses. During
                 fiscal years 2003 and 2004, the State agency issued review reports for 8 of
                 its 10 home sponsors. Those reports contained 352 findings, some of which were
                 common to all eight sponsors—for example, noncompliance with meal patterns,
                 meal counts not recorded daily, and fewer children present than normally
                 claimed. However, the State agency did not analyze the review results to
                 identify these widespread problems, advise the sponsors of the problems noted,
                 and implement statewide corrective actions.

                 We attributed the State agency’s on-site review problems to a lack of formal
                 guidance, including the supervisor’s role in the review process. According to a
                 State agency official, they relied on its reviewers to arrange and conduct
                 entrance and exit meetings, select provider homes to visit, write the report, and
                 follow up on the corrective actions with little or no management oversight. That
                 same State agency official stated that the monitoring operations were in disarray
                 when they were re-assigned in mid-fiscal year 2004, and they have not had the
                 time to document the State agency’s review process.

                 At a minimum, State agency management needs to ensure that sponsor and
                 center corrective actions are appropriate. State agency management should also
                 document the anticipated completion dates and the status of each review phase,
                 including sponsor visits, provider visits, report issuance, corrective actions, and
                 closeout. Finally, State agency management needs to analyze the results of on-
                 site reviews to detect and remedy systemic program deficiencies.

Recommendation 10

                 Require the State agency to establish controls to monitor the review process to
                 ensure that all reviews are completed and issued in a timely manner, all
                 corrective actions are taken, and review results are analyzed for statewide
                 trends.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency had completed all scheduled reviews of daycare Centers
                 and home sponsors for fiscal year 2005, and established timelines for timely
                 report issuance. By June 1, 2006, the State agency will implement additional
                 procedures to supervise the review process more closely, one of those
USDA/OIG-A/27010-0018-Ch                                                                   Page 19
                 procedures include bi-monthly progress reports to monitor each review and
                 ensure satisfactory completion of corrective actions. In addition, the State
                 agency will use CLICS to automate key review findings to identify statewide
                 trends.

                 OIG Position.

                 We accept FNS’ management decision. For Final Action, FNS officials need to
                 inform the OCFO when the State agency has implemented the additional
                 procedures for timely reporting on sponsor issues and increased supervision of
                 the entire review process.

Recommendation 11

                 Require the State agency to establish written review policies and procedures that
                 describe the entire review process, including management oversight and
                 direction of review team staff.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 and the State agency will amend its review procedures to reflect current
                 practices and provide clarification regarding management oversight and
                 direction of review staff. The State agency will implement their amended review
                 procedures, which include reading on-site review reports, by March 1, 2006.

                 OIG Position.

                 We accept FNS’ management decision. For Final Action, FNS officials need to
                 inform the OCFO when the State agency has implemented their amended review
                 procedures.



Finding 7        Sponsor Staffing Requirement Did Not Ensure Adequate Oversight

                 The monitor staffing levels at the two sponsors we reviewed were not sufficient
                 to ensure adequate oversight of providers. This situation existed because the
                 State agency did not assess the sponsors’ monitoring staff to ensure they were
                 conducting effective provider home visits. As a result, State agency and sponsor
                 monitoring of providers may not identify all adverse conditions for corrective
                 action.

                 In August 1999, OIG reported that sponsor monitoring of home providers was
                 ineffective and rarely documented deficiencies that OIG found during its home
                 visits. To correct critical weaknesses in State and sponsor oversight of CACFP,

USDA/OIG-A/27010-0018-Ch                                                                  Page 20
                 State agencies were to ensure that their home sponsors employed an appropriate
                 number of monitoring personnel, defined as one Full-time Equivalent (FTE)
                 staff person for every 50 to 150 providers. FNS developed this range based on
                 the average length of time, estimated at 15 hours annually, to perform 3 home
                 visits per provider per year and other related monitoring duties, such as
                 analyzing daily meal counts and attendance logs. According to sponsor officials,
                 it takes just 20 to 30 minutes to complete a visit to one provider’s home, for a
                 total of 1.5 hours for 3 home visits annually.

                 However, our analysis disclosed that the amount of time the sponsors’ monitors
                 spent performing provider visits—as little as 20 minutes per visit—was not
                 sufficient to document all program violations. Our review disclosed that
                 115 of the 148 (78 percent) monitoring reports completed for 40 providers did
                 not document any program violations. (See Exhibit B.) Conversely, when we
                 conducted a single home visit at 25 of the 40 providers, we identified at least
                 one program violation at 18 (72 percent) of those 25 providers. (See Exhibit C.)
                 In addition, one provider we visited had not completed its meal claim form for
                 the past two days, but the sponsor’s monitoring report dated the day before our
                 visit did not document any program violations.

                 The State agency also noted program violations during its visits to providers’
                 homes, but it did not compare those results to what the sponsors’ monitors
                 reported. The State agency visited 5 of the same 40 providers we analyzed above
                 and documented similar program violations at 4 of those 5 providers. Although
                 the sponsors’ monitors conducted 16 home visits at those 4 providers, they did
                 not document a single adverse condition during 12 (75 percent) of those home
                 visits. We found that the State agency usually recommended that the sponsor
                 take action against the noncompliant providers, but none of those
                 recommendations affected the sponsor’s monitoring staff. State agency officials
                 stated that they reviewed the sponsors’ staffing levels, but only to ensure they
                 complied with the new FNS requirement of one FTE for every 50 to
                 150 provider homes sponsored.
                 We concluded that the sponsors did not allot enough time for effective
                 monitoring visits at each provider home. The State agency needs to assess the
                 sponsors’ monitoring review results of provider homes in order to determine the
                 adequacy of its monitoring process and related staffing allocations.

Recommendation 12

                 Require the State agency to amend its sponsor review procedures to include an
                 assessment of the adequacy of sponsors’ monitoring visits.

                 Agency Response.

                 In its response, dated October 20, 2005, FNS agreed with our recommendation
                 even though the State agency disagreed that its review procedures lacked an
USDA/OIG-A/27010-0018-Ch                                                                 Page 21
                    assessment of a sponsor’s monitoring visit. However, the State agency agreed to
                    increase its oversight of a sponsor’s monitoring of providers by requiring
                    sponsors to submit quarterly activity reports to adequately evaluate the ratios of
                    monitors to providers. The State agency will implement their additional
                    oversight of sponsors’ provider visits by March 1, 2006.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS officials need to
                    inform the OCFO when the State agency implements its additional oversight of
                    sponsors’ provider visits.




Finding 8           State Agency Did Not Secure Federal Funds

                    The State agency did not take appropriate action to secure CACFP funds from
                    one sponsor that oversaw four home providers convicted of fraud. Due to the
                    State agency’s limited involvement and direction, it was unable to provide FNS
                    a complete update on the status of the investigation. In addition, the State
                    agency did not have a plan to recover over $265,000 in misappropriated
                    program funds from court-ordered restitutions. When we learned that part of the
                    court-ordered restitution had already been paid but not remitted to FNS, we
                    issued a management alert.

                    During our fieldwork we were informed of an ongoing investigation of one
                    CACFP provider in Hennepin County, Minnesota. In discussions with a
                    Hennepin County investigator, we learned that four home providers had actually
                    been convicted of perpetrating fraud against the CACFP, and other providers
                    were suspected of illegally obtaining CACFP funds in other Minnesota counties.
                    We also found that part of the court-ordered restitutions from the four convicted
                    providers had been collected by the Hennepin County court. Even though the
                    State agency was notified of the investigation in fiscal year 2002, it did not get
                    involved in the resolution process. Since that time, the providers were
                    investigated, prosecuted, and ordered to pay restitutions to the sponsor. Due to
                    the State agency’s limited involvement, it was not aware that court-ordered
                    restitutions were paid and did not have a plan to ensure those funds were
                    remitted to FNS. State agency officials told us that they were reluctant to get
                    involved because they did not want to interfere with the investigation.

                 In October 2004, OIG issued a management alert recommending that FNS work
                 with the State agency to ensure all court-ordered restitutions of CACFP funds
                 were remitted to FNS. We also recommended that FNS require the State agency
                 to monitor future court-ordered restitutions and work with other Minnesota
                 departments to ensure program integrity in Ramsey and other counties. FNS
                 agreed with both of our recommendations and required the State agency to
USDA/OIG-A/27010-0018-Ch                                                               Page 22
                              (1) have all court-ordered restitutions of CACFP funds remitted to FNS’
                              lockbox, and (2) increase oversight activity and provide a detailed plan of how
                              the State agency will ensure program integrity in other Minnesota counties. (See
                              exhibit D).

                              Because of FNS’ prompt action in response to our management alert, the State
                              acted quickly to secure the court-ordered restitutions. In its response to our
                              recommendation, the State agency calculated that the total amount to be
                              collected from the sponsor was $265,347. The State agency’s response also
                              included a demand letter to the sponsor that covered the original four providers
                              plus one other provider that was ordered to pay restitution. In addition, the State
                              agency will verify the amounts from two other providers’ cases that were
                              pending court action. Finally, the State agency responded that once it verified
                              the amounts for the providers already in the court system, it would turn its
                              attention to the claims for another 23 providers that the Hennepin County
                              investigator suspected of fraudulent activity. Although more than 10 months
                              have passed since we issued the management alert, the State agency has not yet
                              collected the entire $265,347 in Federal funds or provided a detailed plan on
                              how it will investigate those 23 providers.

                              The State agency issued a demand letter to the sponsor on November 30, 2004,
                              and the sponsor filed an appeal on December 15, 2004. As of May 2005, the
                              State agency still had not acted on the sponsor’s appeal. Federal regulations 16
                              require that the State agency's administrative review official issue a decision
                              within 60 days of the receipt of the appeal. In July 2005, the State agency
                              forwarded, to FNS, a partial payment received from the sponsor in the amount
                              of $24,906, and indicated they have not completed the administrative review
                              process. More than 10 months have passed since we issued the management
                              alert and the State agency has not yet collected the remaining $240,441 in
                              Federal funds or provided a detailed plan on how it will investigate the 23
                              suspected program violators.

Recommendation 13

                              Continue to work with the State agency to ensure the $265,347 in Federal funds
                              are remitted to FNS.

                              Agency’s Response.

                              In its response to the management alert, dated October 21, 2004, FNS agreed
                              with our recommendation and required the State agency to issue a demand letter
                              to the sponsor requesting payment of $265,347 in Federal funds. In subsequent
                              correspondence, FNS informed OIG that the State agency received $24,906 in
                              restitution payments that was forwarded to FNS’ lock box on July 5, 2005.

16
     7 CFR 226.6 (k)(5)(ix)
USDA/OIG-A/27010-0018-Ch                                                                                Page 23
                 In its response to the official draft, dated October 20, 2005, FNS agreed with our
                 recommendation and stated that it would work with the State agency to press for
                 a speedy conclusion to their appeal process followed by rapid fiscal action to
                 collect Federal funds, with an estimated completion date of March 1, 2010.

                 OIG Position.

                 We issued the official draft report on September 13, 2005, and included FNS’
                 response to the management alert and our position, which stated that in order to
                 reach management decision, as required by Department Regulation 1720-1; FNS
                 needs to issue a bill to the State agency for the remaining
                 $240,441 in uncollected Federal funds. However, FNS’ response to the official
                 draft report did not address the actions required to reach management decision
                 listed under OIG Positions. In order to reach management decision, FNS needs
                 to provide a copy of the bill issued to the State agency for the remaining
                 $240,441 in uncollected Federal funds.

Recommendation 14

                 Require the State agency to monitor future court ordered restitution and work
                 with other Minnesota Departments to ensure program integrity in other counties.

                 Agency’s Response.

                 In its response to the management alert, dated October 21, 2004, FNS agreed
                 with our recommendation and required the State agency to increase their
                 oversight activity and provide a detailed plan of how they will ensure Program
                 integrity in other Minnesota counties. In the State agency’s response to FNS,
                 dated December 1, 2004, they stated that they determined the court-ordered
                 restitution amounts for four providers and will verify the amounts for two
                 additional providers awaiting court action. The State agency also responded that
                 after they complete their investigation of those six providers, they will turn their
                 attention to the 23 suspected cases. Finally, the State agency responded that they
                 will continue to review their internal procedures to ensure oversight
                 responsibilities are increased.

                 In its response to the official draft, dated October 20, 2005, FNS agreed with our
                 recommendation and will require the State agency to contact the Minnesota
                 Department of Human Services and try to develop some agreement for
                 interagency sharing of information regarding potential fraudulent activity. The
                 State agency will require its sponsors’ to inform the State of any investigations
                 as soon as they are aware of, interviewed, or requested to provide documents to
                 law enforcement investigators. The State agency will implement additional
                 sponsor requirements and a system to better track all prior year recoveries and
                 restitutions, by March 1, 2006.

USDA/OIG-A/27010-0018-Ch                                                                    Page 24
                 OIG Position.

                 We issued the official draft report on September 13, 2005, and included FNS’
                 response to the management alert and our position, which stated that FNS needs
                 to provide a response that includes the State agency’s methodology on
                 increasing program oversight and investigating suspected providers in other
                 Minnesota counties. However, FNS did not specifically address the 23 providers
                 suspected of fraud in other Minnesota counties. In order to reach management
                 decision, FNS needs to provide a response that includes the State agency’s
                 methodology and timeframe for reviewing the activity of 23 daycare home
                 providers suspected of fraudulent activity and implementing appropriate
                 corrective actions.




USDA/OIG-A/27010-0018-Ch                                                               Page 25
Scope and Methodology
                                   During fiscal year 2004, the FNS Midwest region provided over $280 million
                                   in meal reimbursements to six States, including about $50 million to
                                   Minnesota. An additional $20 million in State Administrative Expense funds
                                   was provided to the same six States, with about $2.7 million claimed by
                                   Minnesota. Based on FNS concerns and our initial audit fieldwork, we
                                   conducted a separate audit titled “Controls Over the Minnesota Department of
                                   Education’s Use of Federal Funds” (Audit No. 27010-19-Ch) dated June 2005.

                                   Our audit of the State agency’s oversight of CACFP operations was performed
                                   between September 2004 and August 2005. Fieldwork was conducted at the
                                   FNS regional office in Chicago, Illinois, and the State agency’s office in
                                   Roseville, Minnesota. Of the State agency’s over 300 centers, 17 we performed
                                   a file review of its 10 highest-claiming centers as reported in the September
                                   2004 claim file. Also, out of a total of 10 home sponsors that oversee more
                                   than 10,000 providers State-wide, we reviewed operations at 2 judgmentally
                                   selected sponsors with oversight responsibility for approximately
                                   1,500 providers. At each of the 2 sponsors we judgmentally selected
                                   20 providers (40 providers in total) to perform a file review and conducted
                                   home visits at 25 of those 40 providers located in and around the
                                   Minneapolis/St. Paul area.

                                   To accomplish our audit objectives we:

                                        •    reviewed regulations, policies, and procedures governing CACFP,
                                             including the interim rule changes published by FNS in the Federal
                                             Register on June 27, 2002, and September 1, 2004;

                                        •    interviewed FNS regional officials and State agency officials to
                                             determine the controls used to monitor CACFP operations at the State
                                             agency, centers, home sponsors, and providers;

                                        •    examined records, reports, correspondence, and other documentation
                                             relating to State agency and home sponsor oversight of providers;

                                        •    analyzed meal claim data submitted by home providers and centers;

                                        •    tested the State agency’s edit checks of provider data.

                                   This audit was conducted in accordance with generally accepted Government
                                   auditing standards.

17
     The term “center,” in this context, refers to center sponsors that may include additional child care centers under one sponsorship.
USDA/OIG-A/27010-0018-Ch                                                                                                           Page 26
Exhibit A – Summary of Monetary Results
                                                                  Exhibit A – Page 1 of 1



     FINDING
                     DESCRIPTION            AMOUNT         CATEGORY
     NUMBER

                                                      Questioned Costs:
                Court-ordered Restitution
         8                                  $ 265,347 Recovery
                To Be Remitted to FNS
                                                      Recommended

                   TOTAL                    $ 265,347




USDA/OIG-A/27010-0018-Ch                                                     Page 27
Exhibit B – Sponsors’ Monitoring Review Results and OIG Claims Analysis of
                    40 Providers from October 2003 through January 2005.
                                                                          Exhibit B – Page 1 of 1



                                                                    Percentage of
        Monitor Review Results      Sponsor 1   Sponsor 2   Total   Total Reviews
                                                                    COMPLETED


      Review reports completed         76          72       148            -

      No adverse condition noted       64          51       115          78%

      Child enrollment forms not
                                       65          64       129          87%
      reviewed
      Number of monitoring visits
      when providers claimed
                                       12          17        29          20%
      more meals than children
      observed (see below)
                                                                     Percentage of
         OIG Claims Analysis Based on Monitor Review Results        Total Providers
                                                                       Selected
      Number of providers that
      claimed more children than       9           14        23          58%
      monitor observed
      Number of children claimed
      by providers                    122         165       287
      Number of children observed
      by monitor                       87         112       199
              Difference               35          53        88




USDA/OIG-A/27010-0018-Ch                                                             Page 28
Exhibit C – Results of OIG Home Visits to 25 Providers
                                                                                 Exhibit C – Page 1 of 1




                                                                                   Percentage
                                                  Number of Providers
           Provider Home                                                            of Total
            Visit Results               Sponsor 1         Sponsor 2                  Homes
                                      (12 Providers)    (13 Providers)   Total     VISITED

   Less than 3 shifts for each meal
                                           11                 13          24            96%
   service

   Providers with children missing
                                            10                12           22
   (Number of children                                                                  88%
                                           (33)              (71)        (104)
   enrolled but not present)

   At least one adverse condition
                                            7                 11          18            76%
   noted

   Enrollment greater than
                                            4                 7           11            44%
   licensed capacity

   In/Out times
                                            1                 7           8             32%
   not recorded

   Meal claim forms
                                            2                 6           8             32%
   not current

   Day care home
                                            4                 0           4             16%
   over licensed capacity

   Claim forms completed before
                                            1                 0           1              4%
   meal served




USDA/OIG-A/27010-0018-Ch                                                                    Page 29
Exhibit D – Agency Response to the Management Alert
                                                      Exhibit D – Page 1 of 4




USDA/OIG-A/27010-0018-Ch                                         Page 30
Exhibit D – Continued
                           Exhibit D – Page 2 of 4




USDA/OIG-A/27010-0018-Ch              Page 31
Exhibit D – Continued
                           Exhibit D – Page 3 of 4




USDA/OIG-A/27010-0018-Ch              Page 32
Exhibit D - continued
                           Exhibit D – Page 4 of 4




USDA/OIG-A/27010-0018-Ch              Page 33
Exhibit E – Agency Response to the Report
                                                                                          Exhibit E – Page 1 of 9




United States                                                                         October 20, 2005
Department            Mr. Edward R. Krivus, Regional Inspector General
of                    Office of Inspector General
Agriculture           Midwest Regional Office
                      111 North Canal Street, Suite 1130
Food and              Chicago, Illinois 60606-1130
Nutrition
Service               Dear Mr. Krivus:
Midwest Region
                      We have received the official draft audit report entitled “Monitoring of CACFP
77 W. Jackson Blvd.   Providers in Minnesota”, number 27010-0018-Ch. Each recommendation is
  th
20 Floor
Chicago, IL           addressed below.
60604-3591
                      Recommendation 1

                      Require the State agency to provide FNS with their procedures and timeframes
                      for implementing the new edit check.

                      FNS agrees with this recommendation.

                      The State has responded that they have notified their institutions of the new
                      requirements and provisions of the second interim rule and the need for the
                      implementation of the required edit checks within their systems. Additionally, they
                      are monitoring the implementation of institutions by reviewing their management
                      plans as well as through on-site reviews.

                      On the state level, as noted in the Audit Report, the State is not receiving data from
                      the sponsors that will allow all the needed edit checks to be performed. The state will
                      revise their applications and data collection system to provide the data necessary for
                      these edit checks. The completion of the above revision to CLICS provider
                      applications will be June 1, 2006. Based upon additional data submitted by provider
                      interface, completion of implementation of the new edit checks in the CLICS system
                      will be October 1, 2006.

                      Estimated completion date: October 1, 2006




USDA/OIG-A/27010-0018-Ch                                                                             Page 34
Exhibit E – Agency Response to the Report
                                                                                    Exhibit E – Page 2 of 9

              Recommendation 2

              Require the State agency to establish reasonable limits for the existing edit
              checks in CLICS.

              FNS agrees with this recommendation.

              The State has revised the existing edit checks as follows:

              Number of days served: 31 days, until programming can be implemented to limit this
              further to the actual number of days in the month. Additionally, the State plans to
              create monthly reports from the system for providers with the number of days served
              exceeding 24. These will be provided to the sponsors for their verification and
              approval.

              Average Daily Attendance: 25-30. The State plans to create reports that will
              identify providers who seem to have a high average daily attendance and ask sponsors
              to verify that information. Parent contacts may also be used in certain circumstances.

              Completion Date: October 1, 2005

              The State has reported that they are in the process of better documenting the CLICS
              system, including the preparation of a data dictionary. These improvements along
              with the additional data collected from the provider’s applications should allow them
              to perform better analyses of the claim data to ensure program integrity.

              Estimated Completion Date: March 1, 2006

              Recommendation 3

              Require the State agency to establish procedures to retain and use CLICS data
              to identify trends and implement appropriate follow-up and corrective actions.

              FNS agrees with this recommendation.

              The State agency will conduct data analyses of monthly provider claims to identify
              possible fraudulent activity or trends that require further validation. Those results will
              be presented to each sponsoring organization with direction to follow-up, including
              parent contacts, if necessary. Sponsors will be required to provide written response to
              the State agency and edit claims as indicated.

              Estimated Completion Date: March 1, 2006
USDA/OIG-A/27010-0018-Ch                                                                       Page 35
Exhibit E – Agency Response to the Report
                                                                                 Exhibit E – Page 3 of 9

              Over the next two years, the State will be working to improve documentation and
              report generation of CLICS data. The State has already begun the process of
              rebuilding the database structure to take advantage of several database design
              improvements from recent years. When fully developed, the database will allow the
              State to see each provider’s daily claim. Additionally, OIG’s concern that the data is
              lost when overwritten by new data will be addressed in the system, with a record of
              every change.

              Estimated Completion Date: October 1, 2007

              Recommendation 4

              Require the State agency to monitor its home sponsors to ensure that they
              implement the required elements of the new block claim edit check process,
              which must include an unannounced visit to the provider's home within 60 days
              of identifying a block claim.

              FNS agrees with this recommendation.

              The Minnesota Department of Education’s 2006 management plan checklist for
              family child care home provider (FCCH) sponsors was amended to require disclosure
              of their procedures in the treatment of edit checks and block claims. Sponsors’
              responses must meet the minimum requirements before the management plan is
              considered complete and approved.

              The State agency has stated that they provided information, training and other
              technical assistance on accurate USDA meal counts to sponsors concerning these
              requirements. They have provided written information related to block claiming on 4
              occasions between October 2004 and July 2005. Our office will obtain and review
              the adequacy of those communications. Additionally, the State provided training to
              family childcare home provider sponsors that addressed block claim edit checks in
              January of 2005. A number of other trainings have included the issue of block
              claiming and will continue to include this topic in future training.

              The State Agency has been monitoring the block claim edit check since September,
              2004 in reviewing FCCH sponsor claims through the provider file review. They are
              now monitoring for whether the FCCH sponsors are monitoring for block claims and
              following through with unannounced home visits within 60 days. The findings and
              corrective actions will be documented in the FCCH sponsor’s monitoring report.

              Estimated Completion Date: January 1, 2006

USDA/OIG-A/27010-0018-Ch                                                                    Page 36
Exhibit E – Agency Response to the Report
                                                                                 Exhibit E – Page 4 of 9
              Recommendation 5

              Require the State agency to develop and implement a written policy for its
              serious deficiency process for its sponsors to follow that, at a minimum, provides
              examples that would result in a serious deficiency declaration.

              FNS agrees with this recommendation.

              The State agency has drafted revised serious deficiency procedures for new and
              renewing sponsors as well as for participating institutions. The State has requested
              FCCH Sponsors to submit specific criteria for declaring providers serious deficient by
              December 15, 2005. The State will review the FCCH sponsors recommendations and
              prepare State criteria for sponsors to use in determining whether a provider is to be
              declared serious deficient. A final written policy for sponsors to follow in declaring
              providers serious deficient will be implemented by January 30, 2006.

              Estimated Completion Date: March 1, 2006

              Recommendation 6

              Require the State agency to assess its sponsors' implementation and use of the
              new serious deficiency process.

              FNS agrees with this recommendation.

              The State agency will assess the FCCH sponsor’s implementation of their serious
              deficiency process and the use of the State agency’s criteria for determining serious
              deficiency through the regular review process. The assessment will be documented in
              the working papers for each review.

              Estimated Completion Date: March 1, 2006

              Recommendation 7

              Require the State agency to review all sponsors' outside employment policies,
              written compensation plans, and professional service contracts, to ensure they
              address and disclose conflict-of-interest, with all affiliates (employees,
              contractors, and board members) of the organization.

              FNS agrees with this recommendation.




USDA/OIG-A/27010-0018-Ch                                                                    Page 37
Exhibit E – Agency Response to the Report
                                                                                  Exhibit E – Page 5 of 9

              The State agency has amended the management plan of each sponsoring organization
              to require the disclosure of their outside employment policy. They are being
              reviewed as each sponsors’ application is being processed. Additionally, adherence
              to the policy will be verified during the regular monitoring of the sponsoring
              organizations and documented in the working papers. As part of the management
              plan, sponsors will include information on compensation plans and list out any
              professional service contracts. Review of this information is a part of the State’s on-
              site monitoring process.

              Estimated Completion Date: March 1, 2006

              Recommendation 8

              Require the State agency to review all sponsors' current board members to
              ensure that a majority are individuals from the community with no financial
              interest in the board's activities and are otherwise independent and accountable.

              FNS disagrees with this recommendation as written.

              We discussed this in length during the exit conference as well during our discussion
              draft meeting. FNS cannot require the State agency to undertake an action that is not
              required by the 7 CFR 226 regulations. Specifically, the regulations do not address
              board member composition. In addition, Minnesota statutes do not prohibit or
              otherwise limit those individuals with a financial interest from serving on the
              governing board of nonprofit organizations.

              The State agency has strengthened the sponsoring organizations application process
              by adding additional elements to the management plan requesting detailed
              information on the organizations’ governing board composition and have reviewed
              those relationships. In addition, the State agency has made recommendations
              regarding governing board composition to their sponsoring organizations. Some
              sponsoring organizations have taken action to implement their recommendations.

              FNS will require the State agency to implement our regulatory requirement at Section
              226.6(b)(2)(vii)(C)(1) which says that nonprofit organizations must have boards of
              directors that provide "adequate oversight of the Program", and demonstrate how they
              are evaluating the sponsoring organizations’ boards of directors “adequate oversight
              of the Program”, which includes independent oversight, conflict-of-interest, and less-
              than-arms-length transactions.


USDA/OIG-A/27010-0018-Ch                                                                     Page 38
Exhibit E – Agency Response to the Report
                                                                                  Exhibit E – Page 6 of 9
              Recommendation 9

              Require the State agency to amend its household contact policy to include
              parental contact as a method of verifying the attendance and enrollment of
              participating children during its monitoring of sponsors and its providers.

              FNS agrees with this recommendation.

              The State agency established procedures for household contacts to verify the
              attendance of enrolled children for both the agency and the sponsoring organizations
              in March, 2005.

              The procedures indicate that household contacts are to be used when the monitor
              finds cause during a sponsor or provider review to verify that meals claimed were
              served to children enrolled and in attendance. This provision applies whether the
              monitor is a State monitor or a sponsor monitor. The household contact procedures
              will be amended, as required, to more clearly delineate the State agency’s use of the
              household contact procedures during reviews and conformity to the second interim
              rules.

              Estimated Completion Date: March 1, 2006

              Recommendation 10

              Require the State agency to establish controls to monitor the review process to
              ensure that all reviews are completed and issued in a timely manner, all
              corrective actions are taken, and review results are analyzed for statewide
              trends.

              FNS agrees with this recommendation.

              The State agency reported that in 2004-05, all scheduled reviews for CACFP centers
              and FCCH sponsors were completed in compliance with Federal regulations 7CFR
              226.6(m)(4)(i). The State agency has established processes for review selection,
              assignments, procedures, report preparation, supervision and closeouts of each
              review. Timelines have been established for timely report issuance.

              In order to supervise the review process more closely, bimonthly progress reports
              with the supervisor and reviewing staff were instituted in October 2005. The primary
              basis of these meetings is to monitor the progress of each review and ensure
              satisfactory completion of corrective actions has been documented before review
              close-out. The State agency will develop a more automated process, within an
              expanded CLICS, for tracking key review findings to identify statewide trends.
USDA/OIG-A/27010-0018-Ch                                                                     Page 39
Exhibit E – Agency Response to the Report
                                                                                    Exhibit E – Page 7 of 9

               Estimated Completion Date: June 1, 2006

               Recommendation 11

               Require the State agency to establish written review policies and procedures that
               describe the entire review process, including management oversight and
               direction of review team staff.

               FNS agrees with this recommendation.

               The State agency has established review procedures that will be updated to reflect
               current review practices and provide clarification regarding management oversight
               and direction of the review team staff. Review reports will be read by management
               staff to assure quality.

               Estimated Completion Date: March 1, 2006

               Recommendation 12

               Require the State agency to amend its sponsor review procedures to include an
               assessment of the adequacy of sponsors' monitoring visits.

               FNS agrees with this recommendation.

               Currently, the State agency review procedures require an assessment of the adequacy
               of sponsors’ monitoring visits by:

           -   Comparing the number and type of findings identified during the State agency visits
               to the number and type of findings identified on sponsoring organization monitoring
               visits. Corrective action is required if State agency findings are significantly higher
               than findings identified on sponsoring organization visits.

           -   Reviewing sponsor monitoring documentation and sponsor oversight of monitoring
               records to ensure adequate oversight of sponsor monitors and providers.

           -   Examining the length of sponsor monitor reviews and other monitoring records to
               ensure the sponsor is performing monitoring and meeting staffing ratios as approved
               in the sponsor management plan.




USDA/OIG-A/27010-0018-Ch                                                                       Page 40
Exhibit E – Agency Response to the Report
                                                                                   Exhibit E – Page 8 of 9

              In addition, the State agency will increase oversight of monitoring by requiring
              sponsors to submit quarterly activity reports to the State agency which include
              information, such as: number of monitors employed; number of monitoring visits
              conducted, number and types of findings identified; number of corrective action
              plans issued; number of each type of meal visit conducted; number and type of
              deductions made; and number of repeat findings.

              The State believes this will allow them to more adequately evaluate whether
              sufficient provider/monitor ratios exist and to identify statewide trends that will be
              useful in improving the integrity of the program. In addition, the State agency will
              amend its FCCH sponsor review procedures to accompany sponsor monitors on a
              percentage of home visits.

              Estimated Completion Date: March 1, 2006

              Recommendation 13

              Continue to work with the State agency to ensure the $265,347 in Federal funds
              are remitted to FNS.

              FNS agrees with this recommendation.

              We will work with the State to press for a speedy conclusion to their appeal process
              followed by rapid fiscal action to collect Federal funds.


              Estimated Completion Date: March 1, 2010

              Recommendation 14

              Require the State agency to monitor future court ordered restitution and work
              with other Minnesota Departments to ensure program integrity in other
              counties.

              FNS agrees with this recommendation.

              The State agency has modified the management plan for sponsors. New instructions
              make clear that sponsors must inform the State of any investigations as soon as they
              are aware of, interviewed or requested to provide documents to law enforcement
              investigators.


USDA/OIG-A/27010-0018-Ch                                                                      Page 41
Exhibit E – Agency Response to the Report
                                                                                  Exhibit E – Page 9 of 9

              In Minnesota, restitution amounts are set by the court and restitution schedules are
              set by the probation department of the county. Payments are made to the county,
              which in turn processes the restitution amount, and forwards it to the sponsor of
              record in the court document. The sponsor must then forward the funds to MDE, who
              will then forward funds to USDA.

              The State agency has designed and is in the process of creating a system that will
              better track all prior year recoveries, including restitutions.

              Additionally, we will require the State agency to contact the Minnesota Department
              of Human Services and try to develop some agreement for interagency sharing of
              information regarding potential fraudulent activity.

              Estimated Completion Date: March 1, 2006

              Enclosed is a copy of the State agency’s response to the draft audit report. Some
              additional information contained in this letter was obtained from State officials during
              discussions.

              If you have any questions or concerns, please contact Dick Gilbert at 312.353.3089.

              Sincerely,




              ELVIRA JARKA
              Regional Director
              Special Nutrition Programs

              cc: Frank Suchy, MWFM
                  Leo Dohogne, MWFM




USDA/OIG-A/27010-0018-Ch                                                                     Page 42
Informational copies of this report have been distributed to:

Agency Liaison Officer                               (3)
General Accountability Office                        (1)
Office of Management and Budget                      (1)
Office of the Chief Financial Officer
  Director, Planning and Accountability Division     (1)
